APPENDIX

TABLE OF APPENDICES
Appendix A
Order, Supreme Court of Oklahoma,
Williams v. TAMKO Bldg. Prods., Inc.,
No. 117,190 (Oct. 1, 2019) ........................... App-1
Appendix B
Order,
Oklahoma
District
Court
of the Sixteenth Judicial District,
Williams v. TAMKO Bldg. Prods., Inc.,
No. CJ-2017-184 (June 11, 2018) .............. App-16

App-1
Appendix A
SUPREME COURT OF OKLAHOMA
________________
No. 117,190
________________
DANIEL WILLIAMS AND BARBARA WILLIAMS,
v.

Plaintiffs-Appellants,

TAMKO BUILDING PRODUCTS, INC.,
Defendant-Appellee.
________________
Filed: Oct. 1, 2019
________________
ORDER COMPELLING ARBITRATION
REVERSED AND CASE REMANDED
________________
¶0 Defendant/Appellee is a roof shingle
manufacturer
incorporated
in
Missouri.
Plaintiffs/Appellants
are
homeowners
whose
contractors installed the Defendant’s shingles on
homeowner’s roof. Plaintiffs filed suit alleging they
are entitled to compensation for damage to their home
caused by Defendant’s faulty shingles and the expense
of installing a new roof. Defendants moved to stay
proceedings and compel arbitration pursuant to an
arbitration agreement on the shingle’s packaging. The
trial court granted Defendant’s Motion to Stay
Proceedings and Compel Arbitration concluding the
Plaintiffs are charged with the knowledge of the
contract even if they did not read it, that TAMKO has

App-2
not waived its right to compel arbitration, and that the
contract is not unconscionable. The Plaintiffs
appealed. This Court retained this matter on its own
motion.
COMBS, J.:
¶1 The issue presented is whether an arbitration
agreement printed on shingle wrapping viewed only
by contractors and then discarded creates a binding
arbitration agreement between the homeowner and
the shingle manufacturer. We hold it does not.
FACTS AND PROCEDURAL HISTORY
¶2 A third party contractor installed TAMKO
Building Products, Inc.’s (TAMKO) shingles on Daniel
and Barbara Williams’ (Homeowners) roof in June of
2007. In April of 2016, the Homeowners noticed that
the shingles were “cracking and de-granulating.” The
damage to the shingles caused “structural problems to
their home.” The Homeowners contacted TAMKO, and
TAMKO requested the Homeowners submit a
warranty claim. The Homeowners complied. Three
months later, TAMKO sent the Homeowners a letter
offering one square of replacement shingles and a
certificate for $100 to cover installation costs.
¶3 The Homeowners filed suit against TAMKO
on claims of product liability, negligent design and
manufacture of the shingles, and failure to warn of
shingle defects. TAMKO filed a Motion to Stay
Proceedings and Compel Arbitration. TAMKO based
its motion on the arbitration agreement printed with
the limited warranty on the wrapping of each bundle
of shingles. The following is the TAMKO arbitration
clause:

App-3
MANDATORY BINDING ARBITRATION:
EVERY CLAIM, CONTROVERSY, OR
DISPUTE OF ANY KIND WHATSOEVER
INCLUDING
WHETHER
ANY
PARTICULAR MATTER IS SUBJECT TO
ARBITRATION (EACH AN “ACTION”)
BETWEEN
YOU
AND
TAMKO
(INCLUDING
ANY
OF
TAMKO’S
EMPLOYEES AND AGENTS) RELATING
TO OR ARISING OUT OF THE SHINGLES
OR THIS LIMITED WARRANTY SHALL BE
RESOLVED BY FINAL AND BINDING
ARBITRATION
REGARDLESS
OF
WHETHER THE ACTION SOUNDS IN
WARRANTY, CONTRACT, STATUTE OR
ANY OTHER LEGAL OR EQUITABLE
THEORY. TO ARBITRATE AN ACTION
AGAINST TAMKO, YOU MUST INITIATE
THE ARBITRATION IN ACCORDANCE
WITH THE APPLICABLE RULES OF
ARBITRATION OF THE AMERICAN
ARBITRATION ASSOCIATION...
R. at 1-2. TAMKO argued that by purchasing and
installing the shingles, the Homeowners agreed to the
limited warranty and its arbitration clause. TAMKO
argued that the Homeowners had the opportunity to
read the warranty, or in the alternative, that the
contractors who opened the product packaging were
agents of the Homeowners and the agent’s knowledge
is imputed to the principal. TAMKO further argued
that submitting a warranty claim bound the
Homeowners to the arbitration clause. The
Homeowners argued that they never knew of nor
agreed to the arbitration clause, the clause is

App-4
unconscionable, and TAMKO waived its right to
demand arbitration. The trial court granted the
Defendant’s Motion to Stay Proceedings and Compel
Arbitration concluding the Homeowners are charged
with the knowledge of the contract, that TAMKO has
not waived its right to compel arbitration, and that the
contract is not unconscionable.
¶4 The Homeowners filed a Petition in Error as
an Interlocutory Order Appealable by Right with this
Court on July 10, 2018. This Court’s order dated
August 17, 2018 re-characterized this appeal as one
from a final order. We retained the matter on July 13,
2018, and it was assigned to this office on August 19,
2019.
JURISDICTION
¶5 The Federal Arbitration Act (FAA) governs
interstate commerce contracts. Rogers v. Dell
Computer Corp., 2005 OK 51, ¶11, 138 P.3d 826, 829.
The FAA controls substantive rights, but the
Oklahoma Uniform Arbitration Act (OUAA) controls
the procedure for enforcing the FAA. Rogers, 2005 OK
51, ¶15, 138 P.3d at 839. “There is no federal policy
favoring arbitration under a certain set of procedural
rules.” Volt Info. Scis., Inc. v. Bd. of Trs. of Leland
Stanford Junior Univ., 489 U.S. 468, 476 (1989). Both
the FAA and the OUAA allow appeals from arbitration
orders that are a final decision. 9 U.S. § 16(b)(1); 12
O.S. § 1879; Green Tree Fin. Corp.–Alabama v.
Randolph, 531 U.S. 79 (2000) (holding an order
compelling arbitration and dismissing the case was a
final decision); Oklahoma Oncology & Hematology
P.C. v. US Oncology, Inc. 2007 OK 12, 160 P.3d 936
(holding an order compelling arbitration and staying

App-5
the case was a final decision). Unlike the FAA, the
OUAA does not bar appeals from orders “granting a
stay of any action.” Compare 9 U.S.C. § l6(b)(1) (1990)
(“Except as otherwise provided … an appeal may not
be taken from an interlocutory order—granting a stay
of any action...”) with 12 O.S. § 1879 (2005) (containing
no provisions for denying an appeal from an order
regarding
arbitration).
Oklahoma
precedent
establishes that an order compelling arbitration and
staying court proceedings is an appealable final
decision under the OUAA. Oklahoma Oncology &
Hematology P.C., 2007 OK 12, 160 P.3d 936.
¶6 The FAA does not preempt the OUAA’s
procedural rules for appeals. “The FAA contains no
express preemptive provision, nor does it reflect a
congressional intent to occupy the entire field of
arbitration.” Volt Info. Scis., Inc., 489 U.S. at 477.
However, state law may be pre-empted if it is “an
obstacle to the accomplishment and execution of”
Congress’ “full purposes and objectives.” Id. In Volt,
the Court permitted a stay of arbitration on state
statutory procedural grounds where the FAA did not
provide for the stay. Id. Further, the FAA’s purpose is
not to force all claims to arbitration nor to expedite
claim resolution. Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213, 219 (1985). “The legislative
history … establishes that the purpose behind [the
FAA’s] passage was to ensure judicial enforcement of
privately made agreements to arbitrate.” Id. The
OUAA procedural provisions ensure that contracts
with arbitration agreements are honored; and the
provisions ensure that contracts without an
arbitration agreement are honored. The OUAA

App-6
procedural provisions further the FAA’s purposes and
are not preempted.
STANDARD OF REVIEW
¶7 This Court’s review of whether a valid
arbitration agreement exists is a question of law
reviewed de novo. Oklahoma Oncology & Hematology
P.C, 2007 OK 12, ¶19, 160 P.3d at 944; Rogers, 2005
OK 51, ¶18, 138 P.3d 826, 831.
ANALYSIS
¶8 An arbitration agreement’s existence is
governed by state law principles. Wilkinson v. Dean
Witter Reynolds, Inc., 1997 OK 20, ¶9, 933 P.2d 878,
880. The FAA does not preempt the traditional
principals of state agency and contract law. See Arthur
Andersen LLP v. Carlisle, 556 U.S. 624, 630-31 (2009).
The FAA’s purpose is “to make arbitration agreements
as enforceable as other contracts, but not more so.”
Prima Paint Corp. v. Flood & Conklin Mfg. Co., 388
U.S. 395, 404, fn. 12 (1967). A valid contract requires
the parties’ mutual consent to the terms. Beck v.
Reynolds, 1995 OK 83, ¶11, 903 P.2d 317, 319.
I.

Actual Knowledge

¶9 The Homeowners could not have had actual
knowledge of the arbitration agreement and therefore
could not consent. Courts presume that a buyer who
had the opportunity to read a contract but did not is
bound by the unread terms. Borden v. Day, 1946 OK
121, ¶4, 197 Okla. 110, 111, 168 P.2d 646, 657. Here,
the buyers did not have an opportunity to read the
contract. There is no evidence that the homeowners
received any notice of the arbitration agreement—not
a wrapper, not a leaflet, not a brochure. The

App-7
Homeowners assert they did not personally purchase
the shingles, nor were they given a copy of materials
containing the arbitration terms. Appellants Br. 3.
The exhibits of correspondence between TAMKO and
the Homeowners for the warranty claims do not
contain any reference to an arbitration agreement. R.
at 17, 33-40. The Homeowners never had the
opportunity to read and obtain actual knowledge of
the arbitration provision.
¶10 This distinguishes the present case from
three of the four cases TAMKO cites in support of its
proposition that “numerous courts around the nation
have found TAMKO’s Arbitration Clause valid and
enforceable.” R. at 11. In three of the cases, although
the courts discuss agency law, the plaintiffs had or
should have had actual knowledge of the arbitration
agreement. See Am. Family Mut. Ins. Co. v. Tamko
Bldg. Prods., Inc., 178 F. Supp. 3d 1121, 1124-5 (D.
Colo. 2016) (noting that the building owners
personally selected and purchased the shingles);
Hoekman v. Tamko Bldg. Prods., Inc., No. 2:14-cv01581-TLN-KJN, 2015 WL 9591471 at *3-4 (E.D. Cal.
Aug. 26, 2015) (noting that the plaintiffs personally
shopped for and purchased the shingles); Krusch v.
TAMKO Bldg. Prods., Inc., 34 F. Supp. 3d 584, 589
(M.D.N.C. 2014) (noting that the agent received a
sample shingle and brochure explaining the
incorporation of a limited warranty—material much
more likely to be passed on to the principal than
throwaway packaging). Here, the Homeowners did not
select the shingles nor do the facts show that they or
their contractor received brochures mentioning a
warranty.

App-8
II. Agency
¶11 The contractors were agents of the
Homeowners for the purpose of selecting and
installing shingles. In the absence of an explicit
agreement, the words or conduct of the parties
considered in light of the surrounding circumstances
can establish an implied agency. Campbell v. John
Deere Plow Co., 1946 OK 189, ¶6, 403 172 P.2d 319,
320. The Homeowners authorized the contractors to
select and install shingles on the Homeowner’s roof.
See R. at 18. The contractors purchased shingles and
installed them. Id. The facts reflect that there was an
agency agreement between the Homeowners and
contractors.
¶12 But the scope of the contractor’s authority did
not include contracting away the Homeowners’
constitutional right to a jury trial.
An authorization is interpreted in light of all
accompanying circumstances...
(a) the situation of the parties, their
relations to one another, and the business in
which they are engaged;
(b) the … usages of trades or employments
of the kind to which the authorization
relates…;
(c) facts of which the agent has notice
respecting the objects which the principal
desires to accomplish;
(d) the nature of the subject matter, the
circumstances under which the act is to be
performed...; and

App-9
(e) the formality or informality, and the
care ... with which an instrument evidencing
the authority is drawn.
Restatement (Second) of Agency §34. The
Homeowners gave the contractor the right to buy and
install shingles. TAMKO argues this gave the
contractors the right to bind the principals to the
arbitration agreement. R. at 11. The Oklahoma
Constitution preserves the right to trial by jury. Okla.
Const. art. 2, §19. A one-time selection and
installation of shingles by a contractor without a
formal agency agreement does not indicate an
authorization to waive a constitutional right.
Especially when the waiver is on material that per
industry custom is opened by someone other than the
consumer and then discarded. Appellants’ Br. 16. The
power to waive a principal’s constitutional right is
usually found in a power of attorney agreement.
Under a power of attorney agreement, the agent is the
principal’s attorney in fact. Tellingly, an attorney in
law representing a client does not have the power to
waive a trial and settle a case without the principal’s
consent. 5 O.S. App. 3-A, Rule 1.2 (2007). How then
could builders contracted to select and install shingles
impliedly gain authority to abandon one’s
constitutional right to a jury trial? The opening of the
shingles’ wrapping did not expand the authority of the
contractors.
¶13 Because the contractors lacked authority to
enter an arbitration agreement, the principals’
ratification of the contract is the only method of
validating the contract. Ratification requires that the
principal accept the benefits of the contract with full

App-10
knowledge of the facts. Kincaid v. Black Angus Motel,
Inc., 1999 OK 54, ¶11, 983 P.2d 1016, 1020. Here, the
principals could not ratify because they did not know
the material facts. The Homeowners stated they were
unaware of the arbitration agreement until after they
submitted a warranty claim. R. at 6. The exhibits
provided by both Plaintiffs and Defendant regarding
their communications do not indicate there is an
arbitration agreement. R. at 17, 33-40. Further, the
wrapping containing the arbitration agreement has a
panel requesting the owner “retain this warranty with
contractors receipt for future reference.” Id. at 15.
That panel does not disclose the arbitration
agreement. Id. The panel specifies only the years of
warranty, the shingles’ color and type, and
installment details. Id. Conspicuously missing is any
mention of the arbitration agreement. There are no
facts suggesting that the Homeowners knew of the
arbitration clause, so the Homeowners could not ratify
the arbitration provision.
¶14 TAMKO argues that the Homeowners had
imputed knowledge of the arbitration clause because
the contractors acting as Homeowners’ agent could
observe the information. Imputed knowledge cannot
mean that an agent who enters a contract with both
authorized and unauthorized provisions suddenly
binds his principal to the unauthorized portions of the
contract. If that were true, then the system of
ratification requiring a principal be apprised of all
material facts would be incongruous. A third party
could circumvent ratification requirements by
entering a contract with an agent that included
unauthorized provisions and then hold the principal
liable for those illegitimate provisions even if the

App-11
principal was never given an opportunity to learn of
them.
III. Third-Party Beneficiary
¶15 TAMKO argues that the limited warranty
provision contained the arbitration agreement, and
because the Homeowners filed a warranty claim with
TAMKO they have sought to enforce their rights in
that contract and cannot now disclaim the arbitration
agreement provision of that contract. Appellee’s Br.
22. However, the Homeowners are not seeking to
enforce their rights under the limited warranty
contract. Their claims arise in tort law not contract
law. R. at 1-4. Nor do their tort law cases stem from a
breach of contract. All of TAMKO’s string-cited cases
subjecting third-party beneficiaries to arbitration
agreements involve claims deriving from the contract
containing the arbitration agreement. Trans-Bay
Eng’rs & Builders, Inc. v. Hills, 551 F.2d 370, 373-74
(D.C. Cir. 1976) (asserting breach of contract); Borsack
v. Chalk & Vermilion Fine Arts, Ltd., 974 F. Supp. 293,
295 (S.D.N.Y. 1997) (asserting breach of contract);
Boyd v. Homes of Legend, Inc., 981 F. Supp. 1423, 1426
(M.D. Ala. 1997) (asserting claims for breach of
implied and express warranties); Ripmaster v. Toyoda
Gosei, Co., Ltd., 824 F. Supp. 116, 118 (E.D. Mich.
1993) (asserting “plaintiff claims he has suffered
because of defendants’ alleged breach with plaintiffs
employer”); Wehe v. Montgomery, 711 F. Supp. 1035,
1036 (D. Or. 1989) (asserting breach of fiduciary duty
which arose from contractual agreement); Interpool
Ltd. v. Through Trans. Mut. Ins. Ass’n Ltd., 635 F.
Supp. 1503, 1505 (S.D. Fla. 1985) (asserting claim to
enforce insurance contract); Lee v. Grandcor Med.

App-12
Sys., Inc., 702 F. Supp. 252, 253 (D. Colo. 1988)
(asserting breach of contract); Infiniti of Mobile, Inc.
v. Office, 727 So.2d 42, 43 (Ala. 1999) (asserting claim
of breach of warranty); Parker v. Ctr. For Creative
Leadership, 15 P.3d 297, 298 (Colo. App. 2000)
(asserting a claim of breach of contract); Liberty
Comm., Inc. v. MCI Telecomm., Corp., 733 So.2d 571,
573 (Fla. Dist. Ct. App. 1999) (asserting claims for
fraudulent inducement to enter contract and breach of
contract).
¶16 Additionally, this fact distinguishes the
present case from the last of the four cases TAMKO
cites to support its proposition that “numerous courts
around the nation have found TAMKO’s Arbitration
Clause valid and enforceable.” 1 Id. at 11. The plaintiffs
in that case included a claim for breach of express
warranty. Overlook Terraces, LTD. v. Tamko Bldg.
Prods., 2015 WL 9906298 at *4 (W.D. Ky. May 21,
2015).
IV. Estoppel
¶17 The Homeowners are not estopped from
challenging the arbitration agreement. Estoppel
prevents one party from taking a position that is
inconsistent with an earlier action that places the
other party at a disadvantage. Rouse v. Oklahoma
Merit Prot. Comm’n, 2015 OK 7, ¶24, 345 P.3d 366,
375. Estoppel requires:
1) a false representation or concealment of
facts; 2) made with actual or constructive
knowledge of facts; 3) to a person without
knowledge of, or the means of knowing, those
1

See supra ¶10.

App-13
facts; 4) with the intent that it be acted upon;
and 5) the person to whom it was made acted
in reliance upon it to his detriment.
Sullivan v. Buckhorn Ranch P’ship, 2005 OK 41, ¶31,
119 P.3d 192, 202. The Homeowners did not know of
the arbitration agreement until after they filed a
warranty claim at the bequest of TAMKO. R. at 8.
And, the Homeowners did not make a false
representation to or conceal facts from TAMKO. An
argument could be made that TAMKO should be
estopped from enforcing its arbitration clause through
linking it to the warranty. TAMKO concealed facts
regarding its arbitration clause when discussing the
warranty claim with Homeowners. The Homeowners
did not know of the arbitration agreement. TAMKO
intended the Homeowners to file the warranty claim
and potentially bind themselves to the arbitration
agreement—deduced from its use of this exact
argument in this case. The Homeowners relied on
TAMKO’s statements and concealment of fact in
submitting a warranty claim to the detriment of the
Homeowners.
V. Unconscionability
¶18 TAMKO’s adhesion contract printed on
material to be discarded is unconscionable. “The basic
test of unconscionability … is whether under the
circumstances existing at the time of making of the
contract, and in light of the general commercial
background and commercial need of a particular case,
clauses are so one-sided as to oppress or unfairly
surprise one of the parties.” Barnes v. Helfenbein, 1976
OK 33, ¶23, 548 P.2d 1014, 1020. The arbitration
clause at issue here is one-sided and was made to both

App-14
oppress and unfairly surprise the Homeowners.
TAMKO’s definition of “owner” under the terms of the
arbitration clause “means the owner of the building at
the time the shingles are installed on that building. If
you purchase a new residence and are the first person
to occupy the residence, TAMKO will consider you
Owner even though the Shingles were already
installed.” 2 R. at 15. “An adhesion contract is a
standardized contract prepared entirely by one party
to the transaction for the acceptance of the other.
These contracts, because of the disparity in bargaining
power..., must be accepted or rejected on a “take it or
leave it” basis without opportunity for bargaining.”
Max True Plastering Co. v. U.S. Fid. & Guar. Co., 1996
OK 28, ¶7, 912 P.2d 861, 864. This arbitration clause
is an adhesion contract, and it requires the
Homeowners to surrender their constitutional right to
a jury trial. Further, this adhesion contract is
intentionally printed on material that will be opened
and discarded by the contractor who is likely not the
owner. The portion of the packaging that is “to be
completed by Owner and Contractor” and retained
recounts only the years of warranty, a description of
the shingles, and installment details—not the
arbitration agreement.

2 Hypothetically, this arbitration agreement binds a purchaser
of a new home completed by a builder a year earlier. The builder
binds the homeowner even though at the time the builder entered
the contract with TAMKO the builder was not the Homeowner’s
agent. Nor would the homeowner have any knowledge of the
agreement or opportunity to negotiate.

App-15
CONCLUSION
¶19 The Homeowners are not bound to the
arbitration agreement. The Oklahoma Constitution
protects the right to a jury trial. An implied agent
whose sole authority is to select and install shingles
does not have the authority to waive the principal’s
constitutional rights. Further, the intentional printing
of an agreement to waive a constitutional right on
material that is destined for garbage and not the
consumer’s eyes is unconscionable. The Homeowners
never had an opportunity to make a knowing waiver
of access to the courts. The order of the trial court
compelling arbitration is reversed and the case is
remanded.
ORDER COMPELLING ARBITRATION
REVERSED AND CASE REMANDED.
¶20 Gurich, CJ., Darby, V.C.J., Kauger,
Winchester, Edmondson, Colbert, Combs, and Kane
J.J., concur.

App-16
Appendix B
OKLAHOMA DISTRICT COURT OF THE
SIXTEENTH JUDICIAL DISTRICT
________________
No. CJ-2017-184
________________
DANIEL WILLIAMS AND BARBARA WILLIAMS,
v.

Plaintiffs,

TAMKO BUILDING PRODUCTS, INC.,
Defendant.
________________
Filed: June 11, 2018
________________
ORDER GRANTING MOTION TO STAY
PROCEEDING AND COMPELLING
ARBITRATION
________________
Now on this 11th day of June, 2018 this case
comes before the Court on the motion to stay
proceedings and compel arbitration filed by the
defendant.
After
considering
the
pleadings,
authorities cited and arguments of counsel the Court
finds and orders as follows:
1. Daniel Williams and Barbara Williams
(hereinafter “Williams”) purchased roofing shingles
manufactured by Tamko Building Products, Inc.
(hereinafter “Tamko”) in May 2007. The shingles were
installed on Williams’ residence located in Panama,
Leflore County, Oklahoma during the following two

App-17
months. On August 5, 2016 Williams filed a warranty
claim with Tamko. On September 28, 2017 Williams
filed this product liability action alleging the shingles
are defective and were either negligently designed or
manufactured or both. The Tamko shingles were
manufactured in a different state but were installed in
Oklahoma. When the shingles arrived at the Williams’
residence they were contained in a plastic wrapper.
The wrapper contained a “Limited Warranty” which
contained a requirement that any dispute must be
arbitrated. Williams deny seeing or reading the
limited warranty contained on the packaging. Tamko
seeks to require compliance with the limited warranty
by Williams compelling the dispute be submitted to
arbitration pursuant to the federal Arbitration Act
(hereinafter “FAA”), 9 U.S.C. §1 et seq., and
Oklahoma’s Uniform Arbitration Act (hereinafter
“OUAA’’), Title 12 O.S.A. § 1850 et seq.
2. Oklahoma state and federal courts routinely
favor enforcement of arbitration clauses under both
the OUAA and FAA. Circuit City Stores, Inc. v.
Adams, 532 U.S. 105, 132 (2001); P&P Industries, Inc.
v. Sutter Corp., 179 F.3d 861, 866 (10th Cir. 1999).
Courts should permit arbitration unless the court can
say with positive assurance the dispute is not covered
by the arbitration clause. Harris v. David Stanley
Chevrolet, Inc., 2012 OK 9. The FAA applies to all
arbitration agreements involving or affecting
interstate commerce. The phrase involving interstate
commerce allows the broadest permissible exercise of
the United States Congress’ Commerce Clause power.
Hai v. Baptist Healthcare of Okl., Inc., 2010 OK CIV
APP 3. Where the FAA applies, Oklahoma courts
apply the substantive law and rights under the FAA.

App-18
Moses H. Case Mem’l Hosp. Mercury Constr. Corp., 460
U.S. 1 (1983). While the FAA creates the substantive
rights that are enforceable in state court, the OUAA
governs the procedure for enforcing the FAA in
Oklahoma state courts. Rogers v. Dell Computer Corp.,
2005 OK 51. On application and motion of a person
showing an agreement to arbitrate, and alleging
another person’s refusal to arbitrate pursuant to the
agreement … if the refusing party opposes the motion,
the court shall proceed summarily to decide the issue
and order the parties to arbitrate unless it finds there
is no enforceable agreement to arbitrate. Title 12
O.S.A. §1858(A). Under the FAA, a court must compel
arbitration if (1) a valid, enforceable arbitration
agreement exists; and (2) the asserted claims are
within the scope of that agreement 9 U.S.C. §4. There
is not an issue regarding the second requirement. The
first requirement is dispositive of the case.
3. Courts should apply ordinary state law
principles that govern the formation of contracts to
determine whether a party has agreed to arbitrate a
dispute. Hardin v. First Cash Financial Servs., Inc.
465 F3d 470, 476 (10th Cir. 2006). The courts will not
require a party to submit a controversy to arbitration
where it has not been so agreed. Okla. Onocology &
Hematology PC v. U.S. Oncology, Inc., 2007 OK 12.
Tamko argues that by purchasing and installing the
shingles Williams accepted the terms of the limited
warranty including the arbitration agreement.
Williams argues they never accepted the limited
warranty. They never signed any document
containing the limited warranty and contend they
never saw the limited warranty language on the
package nor otherwise were notified of the existence of

App-19
this limited warranty until after this controversy
arose. This is an issue of first impression in the State
of Oklahoma. Tamko cites Arizona Cartridge
Manufacturers Ass’n Inc. v. Lexmark Intern., Inc., 421
F.3d 981 (9th Cir. 2005) that arose in the State of
California; Am. Fam. Mut. Ins. Co. v. Tamko Bldg.
Prods. Inc., 178 F. Supp. 3d 1121, 126-27 (D. Colo.
2016) and Krusch v. TAMKO Bldg. Producst, Inc., 34
F. Supp 3d 584, 588-90 (M.D. N.C. 2014) as authority
for its position. Williams cite Hobbs v. Tamko Building
Products, Inc., 479 S.W. 3d 147 (Mo. Ct. App. 2015) as
support for their position. It is true that our sister
states of Colorado and North Carolina came to a
different conclusion on this issue than Missouri. There
do not appear to be distinguishing facts. After
reviewing all of these decisions this Court is
persuaded by and adopts the analysis employed by the
Colorado and North Carolina courts. There exists
authority under Oklahoma law for the proposition
when a consumer buys and uses the goods he/she has
accepted the terms and a valid contract exists.
Oklahoma Gas and Electric Co. v. Toshiba Int’l Corp.,
2016 WL 3659941 (W.D. Okla. 2016). It has long been
the law of the State of Oklahoma that a consumer is
charged with the knowledge of the contract even if he
or she did not read them. First National Bank & Trust
Co. of El Reno v. Sinchcomb, 1987 OK CIV App 1.
4. TAMKO has not done anything that would be
considered a waiver of it’s right to compel arbitration.
Willco Enters., LLC v. Woodruff, 2010 OK CIV APP 18.
The Court does not conclude this contract is
unconscionable. Barnes v. Heifenbein, 1976 OK 33.

App-20
For these reasons, the motion to stay
proceedings and compel arbitration is granted.
[handwritten: signature]
Jonathan K. Sullivan
Judge of the District Court

